Archived: FY 2006 Performance and Accountability Report (PAR)
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
ED PERFORMANCE & ACCOUNTABILITY
FY 2006 Performance and Accountability Report (PAR)
including the FY 2006 Program Performance Report
Full Document  PDF (7.6MB)
Secretary's Message  PDF (256K)
Management's Discussion and Analysis  PDF (664K)
Management's Assurance  PDF (664K)
Improper Payments Overview  PDF (664K)
Performance Details  PDF (324K)
Goal 1: Create a Culture of Achievement
Key Measure Report  PDF (324K)
Goal 2: Improve Student Achievement
Key Measure Report  PDF (456K)
Full Program Reports (Not Audited)
Goal 3: Develop Safe and Drug Free Schools
Key Measure Report  PDF (348K)
Full Program Reports (Not Audited)
Goal 4: Transform Education Into an Evidence-Based Field
Key Measure Report  PDF (268K)
Full Program Reports (Not Audited)
Goal 5: Enhance the Quality and Access to Postsecondary and Adult Education
Key Measure Report  PDF (576K)
Full Program Reports (Not Audited)
Goal 6: Establish Management Excellence
Key Measure Report  PDF (332K)
Full Program Reports (Not Audited)
Financial Details
Principal Financial Statements  PDF (424K)
Notes to Principal Financial Statements  PDF (508K)
Required Supplementary Information  PDF (184K)
Required Supplementary Stewardship Information  PDF (5.2MB)
Report of the Independent Auditors  PDF (5.2MB)
Other Accompanying Information  PDF (5.2MB)
Improper Payments Information Act Reporting Details  PDF (5.2MB)
Report to Congress on Audit Follow-up  PDF (5.2MB)
Credit Management and Debt Collection Improvement Act  PDF (5.2MB)
Management Challenges for Fiscal Year 2007  PDF (5.2MB)
Glossary of Acronyms  PDF (232K)
Program Performance Report (Not Audited)
Comments and suggestions on documents may be sent to PARComments@ed.gov.
Printable view
Last Modified: 12/19/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
Budget
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov